APPENDIX
Appendix A: Decision of the court of appeals
United States v. Ward, 972 F.3d 364 (4th Cir. 2020)....................................... 1a
Appendix B: Decision of the district court
United States v. Ward, 2018 WL 9848286 (Dec. 6, 2018) .............................. 17a
Appendix C: Order denying rehearing on appeal
United States v. Ward, 4th Cir. No. 18-4720 (4th Cir. Sept. 29, 2020) ......... 22a

United States v. Ward, 972 F.3d 364 (2020)

972 F.3d 364
United States Court of Appeals, Fourth Circuit.
UNITED STATES of America, Plaintiff – Appellee,
v.
Timothy A. WARD, Defendant – Appellant.
No. 18-4720
|
Argued: October 30, 2019
|
Decided: August 20, 2020

Assistant Federal Public Defender, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Richmond, Virginia, for
Appellant. G. Zachary Terwilliger, United States Attorney,
Alexandria, Virginia, Heather Hart Mansfield, Assistant
United States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Richmond, Virginia, for Appellee.
Before GREGORY, Chief Judge,
RICHARDSON, Circuit Judges.

KEENAN,

and

Opinion

Synopsis
Background: After defendant pleaded guilty to distributing
cocaine, the United States District Court for the Eastern
District of Virginia, Robert E. Payne, Senior District Judge,
2018 WL 9848286, overruled defendant's objection to
presentence investigation report and imposed 120-month
sentence. Defendant appealed.

The Court of Appeals, Richardson, Circuit Judge, held
that defendant's prior Virginia convictions for possession
with intent to distribute heroin categorically qualified
as “controlled substance offenses” under career-offender
Sentencing Guidelines.
Affirmed.
Gregory, Chief Judge, filed an opinion concurring in the
judgment.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.
*366 Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond. Robert E. Payne,
Senior District Judge. (3:18-cr-00044-REP-1)
Attorneys and Law Firms
ARGUED: Caroline Swift Platt, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Alexandria, Virginia,
for Appellant. Richard Daniel Cooke, OFFICE OF THE
UNITED STATES ATTORNEY, Richmond, Virginia, for
Appellee. ON BRIEF: Geremy C. Kamens, Federal
Public Defender, Alexandria, Virginia, Valencia D. Roberts,

Affirmed by published opinion. Judge Richardson wrote the
opinion, in which Judge Keenan joined. Chief Judge Gregory
wrote an opinion concurring in the judgment.
RICHARDSON, Circuit Judge:
*367 In 2018, Timothy Ward pleaded guilty to one count of
distributing cocaine in violation of 21 U.S.C. § 841. Because
Ward was thrice before convicted of a felony “controlled
substance offense,” the district court applied a career-offender
enhancement to Ward's sentence. U.S.S.G. § 4B1.1(a). As
a result, Ward faced a Federal Sentencing Guidelines' range
of 151 to 188 months' imprisonment—more than six times
the 24 to 30 months Guidelines' range applicable without
the enhancement. Ultimately, the district court imposed a
sentence of 10 years' imprisonment.
According to Ward, his career-offender designation was
erroneous. He argues that his two Virginia convictions for
possession with the intent to distribute heroin do not qualify
as controlled substance offenses under the Guidelines. In
Ward's view, for a state conviction to qualify as a “controlled
substance offense,” the “controlled substances” covered
under the state law of conviction must be coextensive with
those listed in the federal Controlled Substances Act. And
because Virginia law defines controlled substances more
broadly than federal law, his Virginia conviction does not
trigger the career-offender enhancement.
We disagree. Ward's Virginia convictions for possession with
the intent to distribute heroin fall within the Guidelines'
categorical definition of a “controlled substance offense.”
So we hold that Ward's two convictions under Va. Code §
18.2-248 each qualify as a “controlled substance offense” that
may trigger the career-offender enhancement, and we affirm.
I. Background

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 1a

1

United States v. Ward, 972 F.3d 364 (2020)

This case arose from a straightforward “buy-bust” operation.
In 2017, an informant bought 0.1645 grams of cocaine from
Ward. Based on this controlled drug buy, Ward was arrested
and indicted by federal prosecutors. He pleaded guilty to the
distribution of cocaine in violation of 21 U.S.C. §§ 841(a)(1)
and 841(b)(1)(C).
This was not Ward's first time selling drugs. In 2001,
he was convicted in federal court of possessing crack
cocaine with the intent to distribute and sentenced to 84
months' imprisonment. Within six months of release, Ward's
supervised release was revoked. Then, within nine months
of his next release, Ward was again arrested for two heroin
offenses in Virginia in violation of Va. Code § 18.2-248.
He was convicted of both offenses and released from
imprisonment on those charges in 2014, less than three years
before the cocaine sale that would lead to this appeal.
Based on these prior offenses, a federal probation officer
designated Ward a “career *368 offender” under § 4B1.1
of the Federal Sentencing Guidelines: Ward was at least
18 years old when he committed this federal controlled
substance offense in 2017, and he had “at least two prior
felony convictions of a controlled substance offense.” J.A.
159. 1 The career-offender designation did not impact Ward's
criminal-history category. But it did increase his base offense
level from 12 to 32. After credit for accepting responsibility,
Ward faced a Guidelines' range of 151 to 188 months'
imprisonment, more than six times the 24 to 30 months that
Ward would have faced without the enhancement.
1

A defendant is “a career offender if (1) the
defendant was at least eighteen years old at the
time the defendant committed the instant offense
of conviction; (2) the instant offense of conviction
is a felony that is either a crime of violence or a
controlled substance offense; and (3) the defendant
has at least two prior felony convictions of either
a crime of violence or a controlled substance
offense.” U.S.S.G. § 4B1.1(a). A defendant who
is a “career offender” under the Guidelines is
assigned to Criminal History Category VI and
given offense levels at or near the statutory
maximum penalty of the offense of the conviction.
See id.

that his two Virginia convictions were not predicate controlled
substance offenses under the Sentencing Guidelines.
The district court rejected Ward's argument and found
that Ward's two prior Virginia heroin convictions counted
as “controlled substance offense[s]” triggering the careeroffender enhancement. The district court then granted in part
Ward's motion for a downward departure from the Guidelines'
range and imposed a sentence of 10 years in prison followed
by 3 years of supervised release. Ward timely appealed.
II. Discussion
We review a district court's sentencing decisions for abuse
of discretion. United States v. Torres-Reyes, 952 F.3d 147,
151 (4th Cir. 2020). In doing so, we consider both the
procedural and substantive reasonableness of a sentence.
Id. Ward limits his appeal to the former, arguing that,
because the district court improperly designated him a career
offender, his sentence is procedurally unreasonable. See Gall
v. United States, 552 U.S. 38, 51, 128 S.Ct. 586, 169 L.Ed.2d
445 (2007). Whether Ward's Virginia convictions count as
“controlled substance offense[s]” that trigger the careeroffender enhancement is a “legal issue we review de novo.”
United States v. Dozier, 848 F.3d 180, 182–83 (4th Cir. 2017).
We consider this question under the so-called “categorical
approach.” This approach is categorical in that we ask
whether the offense of conviction—no matter the defendant's
specific conduct—necessarily falls within the Guidelines'
description of a “controlled substance offense.” To do so,
we set aside the particulars of Ward's actions underlying
his convictions, focusing instead on “the fact of conviction
and the statutory definition of the prior offense.” Id. at 183
(quoting United States v. Cabrera-Umanzor, 728 F.3d 347,
350 (4th Cir. 2013)). We then compare the elements of the
prior offense with the criteria that the Guidelines use to
define a “controlled substance offense.” See Shular v. United
States, ––– U.S. ––––, 140 S. Ct. 779, 783, 206 L.Ed.2d 81
(2020) (asking “whether the conviction meets [the relevant]
criterion”). 2
2

At sentencing, Ward objected to the career-offender
designation. He conceded that his prior federal conviction
counted as a “controlled substance offense.” But he argued

This approach is one of “two categorical
methodologies.” Shular, 140 S. Ct. at 783.
The other entails “ ‘a generic-offense matching
exercise,’ ” when a court must come up with a
“generic” version of a crime, determining “the
elements of ‘the offense as commonly understood.’
” Id. at 783–84 (citing Mathis v. United States, –––

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 2a

2

United States v. Ward, 972 F.3d 364 (2020)

U.S. ––––, 136 S. Ct. 2243, 2247, 195 L.Ed.2d
604 (2016)). Then it compares those elements to
those of the state offense. Id. at 784. This second
methodology is required for statutes that “refer[ ]
generally to an offense without specifying its
elements.” Id. at 783; see, e.g., Esquivel-Quintana
v. Sessions, ––– U.S. ––––, 137 S. Ct. 1562, 1571,
198 L.Ed.2d 22 (2017) (identifying the “generic
meaning of sexual abuse of a minor”); Taylor v.
United States, 495 U.S. 575, 598–99, 110 S.Ct.
2143, 109 L.Ed.2d 607 (1990) (identifying the
elements of “generic burglary”).
Ward does not argue that we must apply this
second categorical methodology. Appellant Br.
3 (“The question in this case is not about
the supposed ‘generic offense’ of ‘controlled
substance offenses.’ ”). Nor could he. Since
§ 4B1.2(b) specifies the requirements of a
“controlled substance offense,” “no identification
of generic offense elements [is] necessary.” Shular,
140 S. Ct. at 783.
*369 In Ward's case, this approach requires us to identify
the elements of the Virginia law of conviction and the criteria
the Federal Sentencing Guidelines use to define a “controlled
substance offense.” And we ask whether the two categorically
match. 3
3

As we ultimately find that Ward's state offense
categorically matches, we need not address the
alternative “modified categorical approach,” see
Cucalon v. Barr, 958 F.3d 245, 251–53 (4th Cir.
2020); Bah v. Barr, 950 F.3d 203, 208–10 (4th
Cir. 2020), which is “a variant” of the “categorical
approach.” Descamps v. United States, 570 U.S.
254, 257, 133 S.Ct. 2276, 186 L.Ed.2d 438 (2013).
Chief Judge Gregory claims that, by failing to
address that issue, we have “ignore[d] our recent
precedent and create[d] an entirely new framework
that requires us to split from several of our sister
circuits,” Concurrence 375, and have “turn[ed] the
modified categorical approach into an exception to
the categorical approach—not a tool,” id. at 378.
In doing so, Chief Judge Gregory mischaracterizes
our use of the word “alternative” and skates past
the differences in the federal comparators reviewed
in Bah and Cucalon. The Supreme Court recently
explained the “two categorical methodologies” in
Shular, 140 S. Ct. at 783. Since the Guidelines

provision asks us “to determine not whether
the prior conviction was for a certain offense,
but whether the conviction meets some other
criterion, ... we simply ask[ ] whether ... [Ward's]
prior conviction[ ] before us [meets] that measure.”
Shular, 140 S. Ct. at 783. If so, then we need
not address the modified categorical approach. See
Cucalon, 958 F.3d at 250 (describing the modified
categorical approach as applying when the state
law was not a categorical match); Bah, 950 F.3d
at 206–07 (turning to the modified categorical
approach after finding the statute covers conduct
not covered by the federal comparator); see also
United States v. Allred, 942 F.3d 641, 649 (4th Cir.
2019) (applying the modified categorical approach
where the government correctly conceded that
the conviction could not satisfy the categorical
approach).
Ward was convicted of violating Virginia Code § 18.2-248,
which makes it “unlawful for any person to manufacture,
sell, give, distribute, or possess with intent to manufacture,
sell, give or distribute a controlled substance or an imitation
controlled substance.” Ward does not dispute that the
elements of a violation of § 18.2-248 require proving that the
defendant committed one of the actions—manufacture, sell,
give, distribute, or possess with intent to manufacture, sell,
give, or distribute—with an identified controlled substance.
See Cucalon, 958 F.3d at 251.
The key question for our consideration is whether these
elements categorically meet the criteria that the Guidelines
use to define a “controlled substance offense.” We interpret
the Sentencing Guidelines using our ordinary tools of
statutory construction. United States v. Rouse, 362 F.3d 256,
262 (4th Cir. 2004). And “[a]s in all statutory construction
cases,” we start with the plain text of the Guidelines and
“ ‘assume that the ordinary meaning of [the statutory]
language’ ” controls. *370 Marx v. General Revenue Corp.,
568 U.S. 371, 376, 133 S.Ct. 1166, 185 L.Ed.2d 242 (2013)
(quoting Hardt v. Reliance Standard Life Insurance Co., 560
U.S. 242, 251, 130 S.Ct. 2149, 176 L.Ed.2d 998 (2010)); see
Park 'N Fly, Inc. v. Dollar Park & Fly, Inc., 469 U.S. 189,
194, 105 S.Ct. 658, 83 L.Ed.2d 582 (1985).
Section 4B1.2(b) of the Guidelines defines a “controlled
substance offense” as:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 3a

3

United States v. Ward, 972 F.3d 364 (2020)

and use is regulated by law”). The root of the
Chief's disagreement appears not to be our use of
dictionaries to interpret the text, but our reliance on
the text itself.

[A]n offense under federal or state
law, punishable by imprisonment for
a term exceeding one year, that
prohibits the manufacture, import,
export, distribution, or dispensing of a
controlled substance (or a counterfeit
substance) or the possession of a
controlled substance (or a counterfeit
substance) with intent to manufacture,
import, export, distribute, or dispense.

This “offense under federal or state law” must satisfy two
criteria: (1) the offense must be “punishable by imprisonment
for a term exceeding one year” and (2) the federal or
state law must (a) prohibit the manufacture, import, export,
distribution, or dispensing of a controlled substance, or (b)
prohibit the possession of a controlled substance with intent
to manufacture, import, export, distribute, or dispense. §
4B1.2(b).

First, we note that only an “offense under federal or state law”
may trigger the enhancement. An “offense” is, of course, “a
breach of law.” Offense, 10 Oxford English Dictionary 724
(2d ed. 1989); Offense, Black's Law Dictionary 1300 (11th ed.
2019) (“a violation of the law; a crime”). The noun, “offense,”
is then modified by a prepositional phrase: “under federal
or state law.” § 4B1.2(b). The preposition “under” means
“[b]eneath the rule or domination of; subject to.” Under, 18
Oxford English Dictionary 949 (2d ed. 1989). 4 So to satisfy
the ordinary meaning of “offense,” there must be a violation
or crime “subject to” either “federal or state law.”
4

In his concurrence, Chief Judge Gregory agrees
with this basic meaning: this provision “necessarily
refers to a set of substances subject to the
control of some government.” Concurrence 379.
Even so he questions why we “primarily rely on
dictionaries ... as authoritative sources on a text's
plain meaning.” Concurrence 380. Dictionaries,
like other interpretative tools, require careful use
and healthy skepticism. Even so, they are a
common and useful interpretive tool. See Blakely
v. Wards, 738 F.3d 607, 611 (4th Cir. 2013) (en
banc) (“To interpret statutory language ... we begin
our analysis with the plain language,” and, “[i]n
beginning with the language itself, we customarily
turn to dictionaries for help in determining whether
a word in a statute has a plain or common
meaning”) (internal quotations omitted). And
here Chief Judge Gregory's own interpretation
tracks the common dictionary definitions. Compare
Concurrence 379, with Black's Law Dictionary
417 (11th ed. 2019) (Controlled Substance is
“any type of drug whose manufacture, possession,

The first criterion, “punishable by imprisonment for a term
exceeding one year,” requires the maximum sentence for the
“offense” to be more than one year. To determine whether the
“offense” has a maximum sentence of more than one year,
we look to possible penalties for that offense as provided
by the relevant “federal or state law” of conviction. Virginia
Code § 18.2-248 is punishable by imprisonment “for not less
than five nor more than 40 years” for the first conviction and
up “to imprisonment for life or for any period not less than
five years” for a second conviction. Thus, an offense under §
18.2-248 satisfies the first criterion.
The second criterion addresses certain prohibited acts, like
the distribution of a controlled substance. The prohibited
actions follow their readily apparent meaning. *371 See,
e.g., Distribution, 4 Oxford English Dictionary 868 (2d ed.
1989) (“[T]he action of dividing and dealing out or bestowing
in portions among a number of recipients; apportionment,
allotment.”); Distribution, Black's Law Dictionary 597 (11th
ed. 2019) (“The act or process of apportioning or giving
out.”). And the ordinary meaning of the object of the
prohibited actions, “controlled substance,” is “any type of
drug whose manufacture, possession, and use is regulated
by law.” Controlled Substance, Black's Law Dictionary 417
(11th ed. 2019) (emphasis added). 5
5

See also Controlled, 3 Oxford English Dictionary
853 (2d ed. 1989) (“Held in check, restrained,
dominated.”); Substance, 17 Oxford English
Dictionary 65 (2d ed. 1989) (“A species of matter
of a definite chemical composition.”).

Here, the state law, Virginia Code § 18.2-248, satisfies this
second criterion of § 4B1.2(b). First, consider the statute's
prohibited actions. Section 18.2-248 makes it “unlawful for
any person to manufacture, sell, give, distribute, or possess

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 4a

4

United States v. Ward, 972 F.3d 364 (2020)

with intent to manufacture, sell, give or distribute a controlled
substance.” § 18.2-248(A). In one sense, by excluding
“import [or] export,” § 18.2-248's prohibited actions are
narrower than those defined by § 4B1.2(b). But an offense
that prohibits a narrower set of actions categorically qualifies.
See, e.g., Bah, 950 F.3d at 206. Although § 18.2-248 uses the
terms “sell” and “give,” where § 4B1.2(b) does not, they fall
within the plain meaning of “distribution” or “dispensing” in

criteria are met, a conviction under § 18.2-248 is a “controlled
substance offense” under § 4B1.2(b). 8
7

Virginia Code § 18.2-247(A) specifies that the term
“controlled substances” refers to the Virginia Drug
Control Act, § 54.1-3400 et seq.

8

To illustrate, analyzing Ward's 2001 federal
crack-cocaine conviction—which the parties agree
is a “controlled substance offense” under the
Guidelines—requires asking whether the same two
criteria are met: (1) an offense punishable by
imprisonment for more than one year; and (2)
arising under a federal or state law prohibiting
certain actions—like distribution of a controlled
substance. And we would do so by looking to the
federal law defining his 2001 federal conviction.
Ward's prior federal offense arises under 21 U.S.C.
§ 841(a)(1), which is punishable by imprisonment
for more than one year (and therefore categorically
satisfies the first criterion). See id. § 841(b).
And § 841(a)(1) categorically satisfies the second
criterion, prohibiting the same actions with the
same object enumerated in § 4B1.2. See id. §
841(a)(1) (unlawful “to manufacture, distribute, or
dispense, or possess with intent to manufacture,
distribute, or dispense, a controlled substance”); id.
§ 802(6) (“The term ‘controlled substance’ means
a drug or other substance, or immediate precursor,
included in schedule I, II, III, IV, or V of part
B of this subchapter” in the federal Controlled
Substances Act.).

§ 4B1.2(b). 6
6

Start with the terms in the Sentencing Guidelines.
The verb “distribute” means “[t]o deal out or
bestow in portions, or shares among a number
of recipients; to allot or apportion as his share
to each person of a number.” Distribute, 4
Oxford English Dictionary 867 (2d ed. 1989). To
“dispense” similarly means “[t]o mete out, deal out,
distribute.” Dispense, 4 Oxford English Dictionary
809 (2d ed. 1989).
Next, take the terms in the Virginia statute. When
a person gives an item, he is “mak[ing] another
the recipient of [the item] (something that is in
the possession, or at the disposal, of the subject).”
Give, 6 Oxford English Dictionary 535 (2d ed.
1989). And when a person sells an item, he is
also “giv[ing] up or hand[ing] over (something)
to another person for money (or something that
is reckoned as money); esp[ecially] to dispose of
(merchandise, possessions, etc.) to a buyer for a
price.” Sell, 14 Oxford English Dictionary 935 (2d
ed. 1989).
So when a person sells heroin to another person for
cash, he receives the money and gives, distributes,
and dispenses the drug to the paying customer.

Second, consider the objects of those prohibited actions.
See Va. Code § 54.1-3401 (A “controlled substance” under
Virginia law is defined as “a drug, substance, or immediate
precursor in Schedules I through VI of this chapter” and
“includes a controlled substance analog that has been placed
into Schedule I or II by the Board [of Pharmacy] pursuant to
the regulatory authority in subsection D of § 54.1-3443”). 7
The state has not restricted itself to regulating only those
substances listed on the federal drug schedules. Instead,
the offense identifies those substances that are “regulated”
under Virginia law, which has its own drug schedules. So a
conviction under § 18.2-248 categorically satisfies the second
criterion of § 4B1.2(b), just as it does the first. And since both

*372 Despite the plain language of § 4B1.2(b), Ward argues
that a prior state offense qualifies as a “controlled substance
offense” only where the state offense defines “controlled
substance” just as federal law does in the Controlled
Substances Act, 21 U.S.C. § 802(6). In Ward's view, because
Virginia law prohibits a broader set of substances than federal
law, Virginia Code § 18.2-248 is overbroad and fails to
categorically qualify as a “controlled substance offense.” See
Mellouli v. Lynch, 575 U.S. 798, 135 S. Ct. 1980, 1986, 192
L.Ed.2d 60 (2015).
We disagree. As described above, Ward's argument ignores
the plain meaning of § 4B1.2(b). A predicate offense arises
under either “federal or state law” if it satisfies the two
criteria: (1) the offense is punishable by at least one year's
imprisonment; and (2) the law prohibits the manufacture,
import, export, distribution, or dispensing of a controlled

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 5a

5

United States v. Ward, 972 F.3d 364 (2020)

substance (or the possession with the intent to do so). And,
as we described, to determine whether the offense meets the
first criterion, we look to the law of the jurisdiction of the
conviction. We do not look to an analogous federal statute
to determine whether a state offense is punishable by more
than one year in prison. Nor do we look to a federal statute to
determine whether the offense satisfies the second criterion.
Where a defendant is convicted under a state statute, we look
to see how the state law defining that offense defines the
punishment and the prohibited conduct (e.g., distribution of a
controlled substance).
We have rejected an argument much like Ward's before,
refusing to limit § 4B1.2(b) to state offenses that define
substances just as federal law defines them. In United States
v. Mills, the district court found that a state conviction for
the “possession with intent to distribute look-a-like controlled
dangerous substances” under Maryland law qualified as a
“controlled substances offense.” 485 F.3d 219, 222 (4th Cir.
2007). Section 4B1.2 includes as a “controlled substance
offense” an “offense under federal or state law ... that
prohibits ... the possession of a controlled substance (or
counterfeit substance) with intent to ... distribute.” § 4B1.2(b)
(emphasis added). Mills argued that only a state offense
prohibiting the distribution of “counterfeit substances” as
defined under the federal Controlled Substances Act, 21
U.S.C. § 802(7), qualified as a predicate offense.
We rejected Mills's argument that we must look to the federal
Controlled Substances Act's definition—a reference that is
notably absent from this Guidelines provision. 485 F.3d
at 223. Instead, we concluded that the ordinary meaning
of “counterfeit substance” controlled: a “substance ‘made
in imitation of’ a controlled substance is a ‘counterfeit
substance.’ ” Id. at 222 (citing 3 Oxford English Dictionary
1027 (2d ed. 1989)). And we then looked to the Maryland
law under which Mills was convicted. Id. In doing so,
we held that Maryland's look-a-like offense categorically
*373 satisfied this ordinary meaning: the Maryland statute
“punishes persons who distribute, attempt to distribute, or
possess with intent to distribute a non-controlled substance
‘made in imitation’ of a controlled dangerous substance.” Id.
The same is true here. 9
9

While Mills never explicitly announced that
it was applying the “categorical approach,” it
applied the methodology underlying that approach:
We identified the criterion for a “controlled
substance offense” in § 4B1.2(b) and “simply asked

whether ... [Mills's] prior conviction[ ] before us
met that measure.” Shular, 140 S. Ct. at 783
(describing the categorical approach); Mills, 485
F.3d at 222.
And the structure of the Guidelines confirms this conclusion.
The Sentencing Commission devised “a veritable maze of
interlocking sections and statutory cross references.” Id.
at 219. For example, § 2D1.1 gives the framework for
sentencing drug-related offenses, setting the offense level
based on different criteria. And those criteria include explicit
references to federal statutes and other federal Guidelines
provisions. See U.S.S.G. § 2D1.1 (a), (b)(3), (b)(16), (b)(18),
(d)(1); see also id. § 2D1.1 (application note 6) (defining
“ ‘analogue,’ for purposes of this guideline, [to] ha[ve] the
meaning given the term ‘controlled substance analogue’ in 21
U.S.C. § 802(32)”).
Section 4B1.2, the provision we address today, also explicitly
references other Guidelines provisions and federal statutes.
That provision “defines ‘crime of violence’ to include
unlawful possession of a firearm as described in 26 U.S.C.
§ 5845(a).” Mills, 485 F.3d at 223 (emphasis added); see
also U.S.S.G. § 4B1.2 (application note 1). But § 4B1.2
refers neither to the federal definition of a “controlled
substance” nor to the federal drug schedules. Yet we know
the Commission understood how to cross-reference other
federal provisions and definitions. See Mills, 485 F.3d at 223.
If the Commission had intended for the federal definition
of “controlled substance” to apply for the career-offender
enhancement, “it had only to say so.” Id. at 223. Like the
Seventh Circuit, “[w]e see no textual basis to engraft the
federal Controlled Substances Act's definition of ‘controlled
substance’ into the career-offender guideline.” United States
v. Ruth, 966 F.3d 642, 654 (7th Cir. 2020).
Ward asks us to depart from Mills and apply the Jerome
presumption. Under this presumption, we “generally assume,
in the absence of a plain indication to the contrary, that
Congress when it enacts a statute is not making the application
of the federal act dependent on state law.” Jerome v. United
States, 318 U.S. 101, 104, 63 S.Ct. 483, 87 L.Ed. 640 (1943).
“That assumption is based on the fact that the application of
federal legislation is nationwide ... and at times on the fact
that the federal program would be impaired if state law were
to control.” Id.
We have cited this presumption when interpreting federal
statutes, as has the Supreme Court. See, e.g., Mississippi
Band of Choctaw Indians v. Holyfield, 490 U.S. 30, 43,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 6a

6

United States v. Ward, 972 F.3d 364 (2020)

109 S.Ct. 1597, 104 L.Ed.2d 29 (1989) (interpreting the
term, “domicile,” in the Indian Child Welfare Act, 25 U.S.C.
§ 1911); Federal Reserve Bank of Richmond v. City of
Richmond, 957 F.2d 134, 135 (4th Cir. 1992) (interpreting the
10

Commission or the Congress.” United States v. MaroquinBran, 587 F.3d 214, 217 (4th Cir. 2009). 11
11

phrase, “taxes upon real estate,” in 12 U.S.C. § 531). The
Jerome *374 presumption, however, is only a presumption;
it gives way to “a plain indication” that the application of
federal law depends on state law. Jerome, 318 U.S. at 104, 63
S.Ct. 483; see also Dickerson v. New Banner Institute, Inc.,
460 U.S. 103, 119, 103 S.Ct. 986, 74 L.Ed.2d 845 (1983).
In other words, “ ‘[t]here are, of course, instances in which
the application of certain federal [law] may depend on state
law. ... But this is controlled by the will of Congress.’ ”
N.L.R.B. v. Natural Gas Utility District, 402 U.S. 600, 603,
91 S.Ct. 1746, 29 L.Ed.2d 206 (1971) (quoting N.L.R.B. v.
Randolph Electric Membership Corp., 343 F.2d 60, 62 (4th
Cir. 1965)).
10

Because the Jerome presumption is overcome here,
we need not determine whether the presumption
for Acts of Congress extends to Guidelines
promulgated by the U.S. Sentencing Commission
(“an independent commission in the judicial branch
of the United States,” 18 U.S.C. § 991(a)). See
United States v. Townsend, 897 F.3d 66, 71 (2d
Cir. 2018) (applying the Jerome presumption to
the Guidelines because, “[a]lthough not a federal
statute, the Guidelines are given the force of law ...
and arguably have an even greater need for uniform
application”).

Assuming the Jerome presumption should be applied to
Guidelines promulgated by the Sentencing Commission, we
are confident that it is overcome here. Section 4B1.2(b)
disjunctively refers us to state law in defining the offense:
“The term ‘controlled substance offense’ means an offense
under federal or state law.” § 4B1.2(b) (emphasis added).
Thus, the Commission has specified that we look to either the
federal or state law of conviction to define whether an offense
will qualify. And this directive is confirmed by the structure
of the Sentencing Guidelines. See Mills, 485 F.3d at 223; see
also Jerome, 318 U.S. at 106, 63 S.Ct. 483 (“[W]hen Congress
has desired to incorporate state laws in other federal penal
statutes, it has done so by specific reference or adoption.”).
In the face of these clear textual and structural expressions,
we cannot now cabin the career-offender enhancement as
Ward suggests. Doing so is “beyond our purview as a court
and properly remains the domain of either the Sentencing

Chief Judge Gregory points us to the commentary
accompanying § 4B1.2(b) as another “reason[ ]
to think that ‘controlled substance’ does not
incorporate substances solely controlled under state
law.” Concurrence 382. Although the commentary
refers solely to federal statutes, it is not an
exhaustive list, as Chief Judge Gregory concedes.
Nor could it be. Limiting “controlled substance
offense[s]” to those under federal law would render
the phrase “under ... state law” superfluous. §
4B1.2(b). See Yates v. United States, 574 U.S.
528, 543, 135 S.Ct. 1074, 191 L.Ed.2d 64 (2015)
(“We resist a reading of § 1519 that would render
superfluous an entire provision passed in proximity
as part of the same Act.”); United States v. Ivester,
75 F.3d 182, 185 (4th Cir. 1996) (“[W]e are
reluctant to interpret statutory provisions so as
to render superfluous other provisions within the
same enactment.”).
We refuse to adopt such an interpretation that
ignores the plain language of the Guidelines, which
classifies “an offense under federal or state law”
as a “controlled substance offense.” § 4B1.2(b)
(emphasis added). Such an interpretation “makes
no sense in the context of the career offender
Guidelines.” Mills, 485 F.3d at 224. Despite
the general goal of “reasonable uniformity in
sentencing,” Concurrence 381 (quoting U.S.S.G.
ch. 3, pt. A1), the career-offender enhancement
expressly depends on state law. In doing so, it
treats offenders in different states differently. To
the extent that one looks for “purpose,” the careeroffender enhancement is designed “to provide
longer sentences for persons who are repeatedly
convicted of violent or drug-related offenses”
under either federal or state law. Mills, 485
F.3d at 224 (citing § 4B1.1 (background)). See
generally Joshua M. Divine, Statutory Federalism
and Criminal Law, 106 VA. L. REV. 127 (2020).

Thus, Ward's two convictions under Virginia Code §
18.2-248 categorically qualify under the ordinary meaning
of “controlled substance offense” in § 4B1.2(b). And the
district court correctly counted those convictions as predicate
offenses for the career-offender enhancement. 12

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 7a

7

United States v. Ward, 972 F.3d 364 (2020)

12

The Second Circuit has held to the contrary:
that “federal law is the interpretative anchor
to resolve the ambiguity at issue here,” the
meaning of “controlled substance” in § 4B1.2(b).
Townsend, 897 F.3d at 71. But Townsend's singular
focus on the phrase, “controlled substance,” fails
to acknowledge that the question is whether
a defendant's prior conviction is an “offense”
that meets the criteria set forth in § 4B1.2(b):
(1) the offense has a maximum imprisonment
of more than one year; and (2) arises under
a law prohibiting the manufacture, distribution,
or dispensing of a controlled substance or the
possession of a controlled substance with the
intent to manufacture, distribute, or dispense. The
context and placement of the phrase, “controlled
substance,” as part of the description of the criteria
for “an offense under federal or state law,” removes
any ambiguity. Id.
*375 * * *

that the identity of the substance was also illegal under federal
law.
Not anymore. Rather than following Bah and Cucalon to
conclude that Ward's heroin conviction under Virginia Code §
18.2–248 satisfies the modified inquiry and, thus, qualifies as
a controlled substance offense, the majority ignores our recent
precedent and creates an entirely new framework that requires
us to split from several of our sister circuits. 1 This framework
is unnecessary and unjustified. 2 Thus, while I agree with the
judgment *376 reached today, I cannot follow the majority
in the path it takes to get there.
1

“Absent an en banc overruling or a superseding
contrary decision of the Supreme Court, we, as
a circuit panel, are bound by these precedents.”
United States v. Prince-Oyibo, 320 F.3d 494, 498
(4th Cir. 2003) (internal citation omitted).

2

Not only does the majority err in not applying the
modified categorical approach—the majority also
errs in the version of the categorical methodology
that applies here. The majority correctly notes
that after this case was argued, the Supreme
Court clarified that there are “two categorical
methodologies.” Maj. Op. at 368-69 n.2 (citing
Shular v. United States, ––– U.S. ––––, 140
S. Ct. 779, 783, 206 L.Ed.2d 81 (2020)). But
then, consistent with its general approach, the
majority limits the reach of Ward's argument
based on a single, isolated sentence from Ward's
Reply Brief: “The question in this case is not
about the supposed ‘generic offense’ of ‘controlled
substance’ offenses.” See Maj. Op. at 368-69 n.2
(quoting Pet. Rep. Br. at 3). From this, the majority
concludes that Ward is not asking that we apply the
generic matching exercise common in many cases,
but instead asking that we apply an approach that
focuses on conduct—i.e. what the Supreme Courts
calls “the Kawashima categorical approach.” There
are several reasons we cannot draw this inference.
First, we cannot expect Ward to have had the
precognition to predict the Supreme Court's recent
sorting of the categorical approaches.
Second, the quoted language from Ward's brief
is raised in the context of emphasizing that
the primary dispute in this case is about
the meaning of “controlled substance” and not
“controlled substance offense.” Thus, a few lines

After Ward pleaded guilty to distributing cocaine, the district
court applied the career-offender enhancement based on his
prior “controlled substance offense” convictions. That was a
correct application of §§ 4B1.1 and 4B1.2. The judgment of
the district court is therefore
AFFIRMED.
GREGORY, Chief Judge, concurring in judgment:
Earlier this year, we held that Virginia Code § 18.2–250, the
section governing possession of controlled substances, was
“divisible by substance” and applied the modified categorical
approach to conclude that a Virginia possession conviction
was a predicate controlled substance offense. Bah v. Barr,
950 F.3d 203 (4th Cir. 2020). A few months later, following
the divisibility analysis in Bah, we held that “the identity
of the prohibited substance is an element of Virginia Code
§ 18.2–248,” and applied the modified categorical approach
to conclude that a Virginia distribution conviction was a
predicate controlled substance offense. Cucalon v. Barr, 958
F.3d 245, 252 (4th Cir. 2020). Collectively, these cases began
the process of providing a straightforward framework for
analyzing whether controlled substance offenses in Virginia
may serve as predicate offenses during sentencing: apply the
modified categorical approach and permit the state conviction
to serve as a predicate offense if the Shepard documents show

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 8a

8

United States v. Ward, 972 F.3d 364 (2020)

earlier, Ward writes: “As an initial matter, the
phrase ‘controlled substance’ does not refer to
an offense at all, generic or otherwise.” The
point of Ward's statement is to point out that
“controlled substance,” which is undefined under
the Guidelines, should be defined by the federal
schedules. And the categorical approach should
be used to determine whether the state schedule
matches the federal schedules when determining
if the state offense may serve as an adequate
predicate offense under the Guidelines. See, e.g.,
United States v. Townsend, 897 F.3d 66, 71 n.4,
72–74 (2d Cir. 2018) (explaining that we need not
“decipher the generic definition” to compare prior
state convictions to their corresponding federal
crime).
Third, Ward does not appeal to Kawashima at
all. Indeed, Kawashima is not cited in either
of Ward's briefs. Instead, Ward consistently asks
us to follow the Supreme Court's approach in
Esquivel-Quintana and Taylor, the two cases that
the majority cites as paradigmatic examples of
applying the generic categorical approach. See
Maj. Op. at 368-69 n.2 (citing examples of cases
applying the “second methodology”); see also,
Pet. Br. at 16 (“But that approach—deferring to
common use of language and therefore states'
definitions for a federal sentencing enhancement—
was rejected by the Supreme Court in Taylor [ ]
and violates well-established principles of statutory
construction.”); Pet. Rep. Br. at 9 (“This Court
should reject the ‘everyday meaning’ argument
here just as soundly as the Supreme Court did in
Esquivel-Quintana.”).
Finally, the application of the conduct-based
approach is unlikely here given the language of
the Guidelines. It is true that, as in Shular, the
dispute is over whether a state drug offense ought to
serve as a predicate offense for enhancement. But a
distinguishing feature of conduct-based approaches
is that they “speak[ ] of activities a state-law [ ]
offense ‘involves.’ ” Shular, 140 S. Ct. at 785; see
also, Kawashima v. Holder, 565 U.S. 478, 483–84,
132 S.Ct. 1166, 182 L.Ed.2d 1 (2012) (noting the
statutory phrase “refers more broadly to offenses
that ‘involv[e]’ fraud or deceit—meaning offenses
with elements that necessarily entail fraudulent or
deceitful conduct,” and is “not limited to offenses
that include fraud or deceit as formal elements”).

As the Supreme Court states, “by speaking of
activities a state-law drug offense ‘involv[es],’
§ 924(e)(2)(A)(ii) suggests that the descriptive
terms immediately following the word ‘involving’
identify conduct.” Shular, 140 S. Ct. at 785. But
“the word ‘is’ indicates a congruence between
‘crime’ and the terms that follow, terms that are also
crimes.” Id. Like the word “is,” the word “means”
in § 4B1.2(b) indicates congruence between an
offense and the terms that follow. Thus, it would be
unnatural to read § 4B1.2 as identifying conduct.
Shular does not alter our precedent requiring that
we match the elements of state drug offenses to
their federal counterpart in these cases where the
Guidelines indicate congruence. Indeed, we have
stated that this is the correct application of the
categorical approach in post-Shular drug cases.
See, e.g., Cucalon, 958 F.3d at 250 (“Under this
framework, we compare the federal definitions
of ‘drug trafficking crime’ and crime ‘relating
to a controlled substance’ to the elements of the
relevant state offense. If the elements of the state
offense ‘correspond in substance to the elements’
of the federal definition, without consideration
of the individual's underlying conduct, the state
conviction is a categorical ‘match’ to the federal
definition.” (internal citations omitted)).

I.
It doesn't take much to resolve this case. We previously held
that the same statute at issue here, Virginia Code § 18.2–
248, is divisible by the identity of the controlled substance.
Cucalon, 958 F.3d at 248 (“Upon our review, we conclude
that Virginia Code § 18.2–248 is divisible by prohibited
substance.”). And our precedent tells *377 us that, when
analyzing whether something qualifies as a predicate offense
under the Guidelines, the threshold inquiry is to determine
whether the categorical approach or the modified categorical
approach is applicable. See United States v. Allred, 942
F.3d 641, 647 (4th Cir. 2019) (“At the outset, we must
determine which of the two modes of analysis the Supreme
Court has approved in this context applies to the instant
case. Specifically, we must choose between the ‘categorical
approach’ and the ‘modified categorical approach.’ ”). How
do we know which approach is warranted? We look at the
statute at issue. The “ ‘first task’ is ‘to determine whether its
listed items are elements,’ thus rendering the statute divisible,
‘or means,’ thus rendering it indivisible.” Id. at 649 (quoting

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 9a

9

United States v. Ward, 972 F.3d 364 (2020)

Mathis v. United States, ––– U.S. ––––, 136 S. Ct. 2243,
2256, 195 L.Ed.2d 604 (2016)). “Where the criminal statute
at issue is indivisible ... we are bound to apply the categorical
approach.” Id. at 647. “Alternatively, the modified categorical
approach applies where the prior conviction at issue is for
violation of a ‘divisible’ statute.” Id. at 648.
Importantly, the modified categorical approach is not an
exception to the categorical approach—that is, it is not
what one turns to when the categorical approach fails. See
Descamps v. United States, 570 U.S. 254, 263, 133 S.Ct.
2276, 186 L.Ed.2d 438 (2013) (“The modified approach thus
acts not as an exception, but instead as a tool.”). Rather, the
approach “merely helps implement the categorical approach
when a defendant was convicted of violating a divisible
statute.” Id. Thus, “[c]ourts examining a divisible statute
employ the ‘modified categorical approach,’ which entails an
examination of a ‘limited class of documents ... to determine
what crime, with what elements, a defendant was convicted
of.’ ” Bah, 950 F.3d at 206 (internal citations omitted). Its
application here is straightforward. Because our precedent
tells us Virginia Code § 18.2–248 is divisible by substance,
we look to the Shepard documents to determine that Ward
was convicted of a felony heroin offense under the statute
as an adult. Since heroin is also a substance controlled
under federal law, Ward's conviction satisfies the modified
categorical inquiry. 3 Case closed.
3

See United States v. Sanchez-Garcia, 642 F.3d 658,
661–62 (8th Cir. 2011) (applying the modified
categorical approach to determine whether a state
conviction was a “controlled substance offense”
under the Guidelines); see also United States v.
Leal-Vega, 680 F.3d 1160, 1166 (9th Cir. 2012)
(applying the modified categorical approach to
determine whether a state conviction was a “drug
trafficking offense” under the Guidelines); United
States v. Gomez-Alvarez, 781 F.3d 787, 793 (5th
Cir. 2015) (same).

II.
So how does the majority manage to evade the framework set
by our precedent? Its recognition of Bah and Cucalon comes
in a footnote, where the majority appears to acknowledge that
those cases apply the modified categorical approach in similar
circumstances. Maj. Op. at 369 n.3. It is true that Bah and
Cucalon addressed the Virginia drug statute in the context of

the Immigration and Nationality Act, not the Guidelines. But
that only changes what we are comparing the divisible statute
against—it does not change the divisibility of the statute.
Since we are starting with a divisible statute, our analysis calls
for the modified categorical approach. Put differently, we
noted in Bah and Cucalon that the identity of the controlled
substance is an element of a Virginia Code § 18.2–248
offense. And since the categorical approach requires us to
compare elements, the identity of the controlled substance
ought to be part of what we compare when *378 we analyze
offenses under Virginia Code § 18.2–248. By not applying
the modified categorical approach, the majority ignores our
previous holding that the identity of a drug is an element of a
Virginia Code § 18.2–248 offense.
The majority's explanation for why the modified categorical
approach does not apply here is brisk. The majority declares:
“As we ultimately find that Ward's state offense categorically
matches, we need not address the alternative ‘modified
categorical approach.’ ” Id. (citing Bah and Cucalon).
Okay. But that turns the modified categorical approach into
an exception to the categorical approach—not a tool. Cf.
Descamps, 570 U.S. at 263, 133 S.Ct. 2276 (“The modified
approach thus acts not as an exception, but instead as a
tool.”). This brief statement from the majority suggests
that, in analyzing whether something is a predicate offense,
courts may get two bites at the apple: try to apply the
categorical approach and—only if that test fails—move on to
the modified categorical approach.
This is a mistake. Our precedent is quite clear that once
we determine that a statute is divisible, the modified
categorical approach applies. See, e.g., Bah, 950 F.3d at 206
(“Courts examining a divisible statute employ the ‘modified
categorical approach.’ ”); id. at 207 (“Thus, [t]he first task for
a ... court faced with an alternatively phrased statute is ... to
determine whether its listed items are elements or means. If
they are elements, the court applies the modified categorical
approach.”) (internal citations omitted); Allred, 942 F.3d at
652 (“Because § 1513(b)(1) sets forth alternative elements
by which witness retaliation may be committed and is thus
divisible, we must apply the modified categorical approach to
determine which of the alternative crimes formed the basis for
[Petitioner]'s conviction.”) (emphasis added). And this makes
sense. A divisible statute “lists multiple, alternative elements,
and so effectively creates ‘several different ... crimes.’ ”
Descamps, 570 at 264, 133 S.Ct. 2276 (quoting Nijhawan v.
Holder, 557 U.S. 29, 41, 129 S.Ct. 2294, 174 L.Ed.2d 22
(2009)). By applying the categorical approach to a divisible

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 10a

10

United States v. Ward, 972 F.3d 364 (2020)

statute, one lumps together those different crimes when
effectuating the categorical analysis. Stating that we “need
not” apply the “alternative” modified categorical approach
because the categorical approach is sufficient puts the cart
before the horse. The divisibility of a statute is our starting
point in the categorical analysis—not where we turn when
there's nothing left. Because Virginia Code § 18.2–250 sets
forth alternative elements by which a controlled substance
offense may be committed and is thus divisible, “we must
apply the modified categorical approach to determine which
of the alternative crimes formed the basis for [Ward]'s
conviction.” Allred, 942 F.3d at 652 (emphasis added). 4
4

Replying to this point, the majority does not deny
that our prior decisions held that the identity of the
drug is an element of Virginia Code § 18.2–248.
Rather, the majority doubles down and repeats that,
despite dealing with a divisible statute, “we need
not address the modified categorical approach.”
Maj. Op. at 369 n. 3. Unless the majority is
suggesting that the modified categorical approach
has no part in the conduct-based version of the
categorical approach the majority applies, it is
tough to see the support for this position. To the
extent that Bah and Cucalon suggests that we only
turn to the modified categorical approach when
the categorical approach fails, it is inconsistent
with our prior precedent that we must apply the
categorical approach to a divisible statute. Since
Allred precedes these cases, it is the controlling law
of our circuit. See McMellon v. United States, 387
F.3d 329, 333 (4th Cir. 2004) (en banc) (“When
published panel opinions are in direct conflict on a
given issue, the earliest opinion controls, unless the
prior opinion has been overruled by an intervening
opinion from this court sitting en banc or the
Supreme Court.”). It's one thing to say that the
modified approach would not make a difference
here, it's quite another to say it does not apply. The
divisibility of Virginia Code § 18.2–248 compels
us to apply the modified categorical approach.

*379 III.
The failure to apply the modified categorical analysis when
our precedent demands its application is, in itself, enough to
reject the majority's approach. Still, the majority compounds
its error by misapplying the precedent it relies on when

creating its new framework. When examining whether a
controlled substance offense is a categorical match under Va.
Code § 18.2–248 and the Guidelines, the majority depends
heavily on our prior decision in United States v. Mills, 485
F.3d 219 (4th Cir. 2007), to support its introduction of the
“plain meaning approach” to the categorical analysis. See
Maj. Op. at 372–73. But this raises a few issues. First, Mills
never purports to use the categorical approach—indeed, the
phrase “categorical approach” is entirely absent from the
opinion. Thus, incorporating Mills's plain meaning approach
into the categorical analysis is unsupported. The majority, that
is, fails to show how Mills provides the footing for its new
framework, which purports to apply the plain meaning and
categorical approach to determine the scope of a “controlled
substance offense.”
Second, the phrase “counterfeit substance,” which was the
subject in Mills, is easily distinguishable from “controlled
substance.” As some of our sister circuits have noted,
“counterfeit” has an ordinary, independent meaning, whereas
“controlled” does not. See, e.g., Leal-Vega, 680 F.3d at 1166–
67 (9th Cir. 2012) (“The word ‘counterfeit’ has a normal,
everyday meaning that we all understand[.] The same is not
true of the word ‘controlled.’ ”). The adjective “counterfeit”
ordinarily means “[m]ade in imitation of something else ...
not genuine.” Mills, 485 F.3d at 222. Hence, we can define
“counterfeit substance” independent of how the word may
be defined in a specific state or federal statute. Leal-Vega,
680 F.3d at 1167. For this reason, “various courts have
defined this term to include two components based on plain
meaning: made (1) in imitation and (2) with intent to deceive.”
Id. (collecting cases). It makes sense to adopt the ordinary
meaning of “counterfeit,” as we did in Mills, because it
is a nontechnical word whose ordinary meaning is easily
discernible.
“Controlled,” however, is a term of art that necessarily
refers to a set of substances subject to the control of some
government. See Gonzales v. Oregon, 546 U.S. 243, 259,
126 S.Ct. 904, 163 L.Ed.2d 748 (2006) (“Control is a term
of art in the [Controlled Substances Act].”); cf. Smith v.
United States, 508 U.S. 223, 241, 113 S.Ct. 2050, 124
L.Ed.2d 138 (1993) (Scalia, J., dissenting) (“In the search for
statutory meaning, we give nontechnical words and phrases
their ordinary meaning.”) (emphasis added). As a passive
past participle, the word requires us to answer the question:
controlled by whom? The majority attempts to provide an
answer to this question by stating “the ordinary meaning”
of “ ‘controlled substance,’ is ‘any type of drug whose

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 11a

11

United States v. Ward, 972 F.3d 364 (2020)

manufacture, possession, and use is regulated by law.’ ” Maj.
Op. at 370 (quoting Controlled Substance, BLACK'S LAW
DICTIONARY (11th ed. 2019)). But that begs the question:
which law? The choice is between a uniform federal definition
on the one hand; or individual, inconsistent state definitions
on the other.
One cannot appeal to any plain meaning of the term
“controlled” to resolve this question. Unlike “counterfeit,”
which any ordinary person would understand to mean “fake,”
the word “controlled” does not *380 stand on its own.
Because Mills never purports to use the categorical approach,
and the phrase “controlled substance” does not have a plain
meaning, Mills does not provide the necessary support for
the majority's plain meaning analysis under the categorical
approach. 5 Accordingly, I cannot accept the majority's
reliance on Mills to support its new framework.
5

To see that Mills is inapposite, one need only look
at several of our sister circuits that have adopted the
plain meaning approach of “counterfeit,” but, when
construing “controlled substance,” have adopted
the federal definition. Compare United States v.
Robertson, 474 F.3d 538, 540–41 (8th Cir. 2007)
(adopting plain meaning of “counterfeit”), with
Sanchez-Garcia, 642 F.3d at 661 (8th Cir. 2011)
(determining whether a state conviction was a
controlled substance offense under U.S.S.G. §
4B1.2(b) by asking whether the state conviction
was for a drug listed in the federal schedules);
compare also United States v. Crittenden, 372
F.3d 706, 707–10 (5th Cir. 2004) (applying plain
meaning of “counterfeit”), with United States v.
Gomez-Alvarez, 781 F.3d 787, 793 (5th Cir. 2015)
(noting that under U.S.S.G. § 2L1.2, which takes
the meaning of “controlled substance offense”
given in § 4B1.2 and its commentary, “the
government must establish that the substance
underlying that conviction is covered by the
CSA”).

determining the “plain meaning” of the text. See Maj. Op.
at 368–71 (using dictionary definitions to discern the plain
meaning of the Guidelines). But the problem with treating
dictionaries as authoritative sources on a text's plain meaning
is well-documented. See, e.g., United States v. Costello, 666
F.3d 1040, 1043 (7th Cir. 2012) (Posner, J.) (explaining why
“dictionaries must be used as sources of statutory meaning
only with great caution”); Cabell v. Markham, 148 F.2d 737,
739 (2d Cir. 1945) (Hand, J.) (“Of course it is true that
the words used, even in their literal sense, are the primary,
and ordinarily the most reliable, source of interpreting the
meaning of any writing: be it a statute, a contract, or anything
else. But it is one of the surest indexes of a mature and
developed jurisprudence not to make a fortress out of the
dictionary.”) (emphasis added); State v. Rasabout, 356 P.3d
1258, 1271–90 (Utah 2015) (Lee, Assoc. C.J., concurring)
(describing the problems with relying on a dictionary to
discern the meaning of a statute and endorsing a “corpus
linguistic” analysis, which looks at real-world examples). 6
Therefore, even if “controlled substance offense” did have a
plain meaning, it is doubtful that the majority's overreliance
on dictionary definitions would be an adequate way to
discern it. Providing a few dictionary definitions of the words
“controlled,” “substance,” and “offense,” is not dispositive
of the meaning of “controlled substance offense” under the
Guidelines. Cf. *381 Yates v. United States, 574 U.S. 528,
538, 135 S.Ct. 1074, 191 L.Ed.2d 64 (2015) (“[A]lthough
dictionary definitions of the words ‘tangible’ and ‘object’
bear consideration, they are not dispositive of the meaning of
‘tangible object’ in § 1519.”).
6

IV.
But let's meet the majority halfway and assume we can use the
basic tools of statutory interpretation to figure out the plain
meaning of “controlled substance.” Still, the majority makes
several mistakes in its interpretive process. For starters,
the majority appears to primarily rely on dictionaries when

See also Frank H. Easterbrook, Text, History, and
Structure in Statutory Interpretation, 17 HARV.
J.L. & PUB. POL'Y 61, 67 (1994) (“ ‘Plain
meaning’ as a way to understand language is
silly. In interesting cases, meaning is not ‘plain’;
it must be imputed; and the choice among
meanings must have a footing more solid tha[n]
a dictionary—which is a museum of words, an
historical catalog rather than a means to decode
the work of legislatures.”) (emphasis added); A.
Raymond Randolph, Dictionaries, Plain Meaning,
and Context in Statutory Interpretation, 17 HARV.
J.L. & PUB. POL'Y 71, 72 (1994) (“Yet
citing to dictionaries creates a sort of optical
illusion, conveying the existence of certainty—or
“plainness”—when appearance may be all there
is.”).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 12a

12

United States v. Ward, 972 F.3d 364 (2020)

In addition, the majority seems to selectively avoid applying
other tools of statutory interpretation that are also instructive.
Take the purpose of the Guidelines for example. Among the
goals of the Guidelines is to create “reasonable uniformity
in sentencing by narrowing the wide disparity in sentences
imposed for similar criminal offenses committed by similar
offenders.” U.S.S.G. ch. 3, pt. A1. That is, the federal
Guidelines do not want courts to treat someone from Virginia
more favorably than someone from West Virginia simply
because they were lucky enough to commit the conduct on
the right side of the border. Thus, in seeking uniformity, we
have stated that “[o]ur precedent offers no basis for analyzing
the laws of different sovereigns under different standards.”
United States v. McCollum, 885 F.3d 300, 306 (4th Cir. 2018).
This goal of uniformity is the reason many of our
sister circuits have applied the Jerome presumption to the
construction of the Guidelines. See United States v. Savin,
349 F.3d 27, 34 (2d Cir. 2003) (collecting cases). Under
this presumption, “we must generally assume, in the absence
of a plain indication to the contrary, that Congress when it
enacts a statute is not making the application of the federal
act dependent on state law.” Jerome v. United States, 318
U.S. 101, 104, 63 S.Ct. 483, 87 L.Ed. 640 (1943) (emphasis
added). This is because “the application of federal legislation
is nationwide and ... the federal program would be impaired
if state law were to control.” Id. (internal citations omitted).
Indeed, since “the administration of criminal justice under our
federal system has rested with the states ... [w]e should be
mindful of that tradition in determining the scope of federal
statutes defining offenses which duplicate or build upon state
law.” Id. at 105, 63 S.Ct. 483. Where, as here, there is
ambiguity on how to interpret the Guidelines, federal law
must be our interpretive anchor. See Townsend, 897 F.3d at 69
(applying the Jerome presumption to resolve the ambiguity of
the phrase “controlled substance” in the Guidelines).
The majority is, of course, aware of all of this. Departing
from the reasoning of other circuits, the majority sidesteps
the Jerome presumption by declaring the language of the
Guidelines makes it obvious that the federal definition of
“controlled substance” does not apply. Maj. Op. at 373. In
the majority's view, that the Guidelines “disjunctively refer[ ]
us to state law in defining the offense” is proof that “the
Commission has specified that we look to either the federal
or state law of conviction to define whether an offense
will qualify.” Maj. Op. at 374. “In the face of these clear
textual and structural expressions,” the majority continues,

“we cannot now cabin the career-offender enhancement.”
Maj. Op. at 374.
But the Guidelines' language is not as clear as the majority
makes it out to be. The text of Section 4B1.2(b) of the
Guidelines reads as follows:

The term “controlled substance
offense” means an offense under
federal or state law, punishable
by imprisonment for a term
exceeding one year, that prohibits
the manufacture, import, export,
distribution, or dispensing of a
controlled substance (or a counterfeit
substance) or the possession of a
controlled substance (or a counterfeit
substance) with intent to manufacture,
import, export, distribute, or dispense.

*382 The dispute here is whether the “controlled substance”
at issue refers to substances controlled solely under state law.
The dispute is not whether a state law offense could serve
as a predicate controlled substance offense under § 4B1.2(b).
Thus, I agree with the majority that the Commission's
reference to state law means that we look to either the federal
or state law of conviction to determine whether an offense
will qualify. Indeed, that is why we look to Ward's conviction
under Virginia Code § 18.2–250 to see if it can serve as a
predicate offense. If “or state law” were written out of the
Guidelines, then no state conviction would be able to trigger
enhancement.
But the majority's explanation for why the Guidelines should
be read as clearly incorporating state law definitions of
“controlled substance” does not hold up. To demonstrate
clarity, the majority focuses on “[t]he context and placement
of the phrase, ‘controlled substance,’ ” asserts that it is
part of “the description of the criteria for ‘an offense under
federal or state law,’ ” and concludes that this “removes any
ambiguity.” Maj. Op. at 375 n.12. That doesn't resolve the
issue. Even if understood as part of the description of the
criteria, the point is that there is ambiguity as to whether
the descriptive content of “controlled substance” includes
substances only controlled under state law. As the Second
Circuit has pointed out, if the authors of the Guidelines
wanted to include any substance controlled under state law,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 13a

13

United States v. Ward, 972 F.3d 364 (2020)

“the definition should read ‘... a controlled substance under
federal or state law.’ ” Townsend, 897 F.3d at 70. It does
not. Of course, “[i]t may be tempting to transitively apply the
‘or state law’ modifier from the term ‘controlled substance
offense’ to the term ‘controlled substance.’ ” Id. Likewise,
it may be tempting to believe that “[i]f the Commission had
intended for the federal definition of ‘controlled substance’
to apply for the career-offender enhancement, it had only
to say so.” Maj. Op. at 373 (internal citations omitted).
But these positions undermine the presumption that federal
standards govern federal sentencing provisions. “Because
the Guidelines presume the application of federal standards
unless they explicitly provide otherwise, the ambiguity in
defining ‘controlled substance’ must be resolved according to
federal—not state—standards.” Townsend, 897 F.3d at 70–71.
Stepping back from the Jerome presumption, there are
other reasons to think that “controlled substance” does not
incorporate substances solely controlled under state law.
Noticeably absent from the majority's plain meaning analysis
is any consideration for the examples of “controlled substance
offenses” provided in the commentary accompanying §
4B1.2(b). Cf. United States v. Hawley, 919 F.3d 252, 255 (4th
Cir. 2019) (“[W]hen the Guidelines provide commentary that
interprets a guideline provision or explains how a guideline
is to be applied, the commentary is controlling[.]”) (internal
quotations omitted). But this commentary is instructive. For
example, pointing out the clarifying language in application
note 1, we previously stated:

conduct that would trigger enhancement under Section 4B1.2,
the Sentencing Commission refers exclusively to federal
statutes. Yet, if the Commission wanted to include conduct
solely punishable under state law, it could have been less
restrictive with its illustrations. For example, the Commission
could have said “[u]nlawfully possessing a prohibited flask or
equipment with intent to manufacture a controlled substance”
is a “controlled substance offense”—without reference to the
federal statute. Likewise, the Commission could have said
“[m]aintaining any place for the purpose of facilitating a
drug offense” is a “controlled substance offense”—without
reference to the federal statute. And so on. If the Sentencing
Commission sought to include all prohibited substances under
state law as qualifying controlled substances, one would
expect the related commentary to be more inclusive. It is
doubtful that the Commission wanted to, say, restrict the
“listed chemicals” to those punishable under federal law but
not restrict the “controlled substances” to those punishable
under federal law. The examples in the commentary should be
read as harmonious with, and complimentary to, the main text.
See Roberts v. Sea-Land Servs., Inc., 566 U.S. 93, 100, 132
S.Ct. 1350, 182 L.Ed.2d 341 (2012) (“The text of § 906(c),
standing alone, admits of either interpretation. But ‘our task
is to fit, if possible, all parts into an harmonious whole.’
” (internal citation omitted)). 8
7

One reason why we should not read the list as
exhaustive is because such a reading would be a
plainly erroneous reading of the Guidelines in that
it would render the phrase “or state” superfluous
in § 4B1.2. See United States v. Allen, 909
F.3d 671, 674 (4th Cir. 2018) (“[T]he Guidelines
commentary is authoritative and controlling unless
it ... constitutes a ‘plainly erroneous reading’ of
the Guidelines.”); see also Maj. Op. at 374 n.11
(explaining how such a reading would render the
phrase “under ... state law” superfluous). The point,
however, is that refusing to extend this section of
the Guidelines to cover substances only controlled
under state law does not suffer from this fatal
flaw. As stated above if “or state law” was read
out then no state offense would be able to trigger
enhancement. On my reading, a state law offense
could trigger enhancement so long as the substance
is one controlled under the federal schedules.

8

This position is further supported by the
Commission's rationale for including the listed
federal offenses as controlled substance offenses.

Section 4B1.2 defines “controlled
substances offense” to include (1)
unlawful possession of a listed
chemical in violation of 21 U.S.C.
§ 841( [c] )(1); (2) unlawful
possession of controlled substances
manufacturing equipment in violation
of 21 U.S.C. § 843(a)(6); (3)
maintenance of a place for facilitating
a drug offense in violation of 21 U.S.C.
§ 856; and (4) use of a communications
facility in aid of a drug offense in
violation of 21 U.S.C. § 843(b).

Mills, 485 F.3d at 223 (emphasis added) (citing U.S.S.G. §
4B1.2 (application note *383 1)). Although this list is not
exhaustive, it is informative. 7 When signifying the type of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 14a

14

United States v. Ward, 972 F.3d 364 (2020)

According to the Commission, the decision was
“based on the Commission's view that there
is such a close connection between possession
of a listed chemical or prohibited flask or
equipment with intent to manufacture a controlled
substance and actually manufacturing a controlled
substance that the former offenses are fairly
considered as controlled substance trafficking
offenses.” U.S.S.G. app. C, amend. 568. Rather
than respect this close connection, the majority
creates disharmony by including substances solely
punishable under state law within the ambit of this
Guideline provision.
Without giving much weight to the reasons we have to
think that “controlled substance” is not meant to incorporate
substances solely punishable under state law, the majority
reaches the conclusion that the enhancement could be based
on the definition of “controlled substance” adopted by the
state of conviction. This turns the point of the categorical
approach on its head. See Esquivel-Quintana v. Sessions,
––– U.S. ––––, 137 S. Ct. 1562, 1570, 198 L.Ed.2d 22
(2017) (“[T]he Government's definition turns the categorical
approach on its head by defining the generic federal offense
of sexual abuse of a minor as whatever is illegal under
the particular law of the State where the defendant was
convicted.”). Whereas the categorical approach was intended
to prevent inconsistencies based on state definitions of
crimes, the majority's approach creates *384 them. Compare
Taylor v. United States, 495 U.S. 575, 588, 110 S.Ct. 2143,
109 L.Ed.2d 607 (1990) (explaining that the enhancement
provision embodies a categorical approach to avoid predicate
offenses being “left to the vagaries of state law”), with
Maj. Op. at 371 (“The state has not restricted itself to
regulating only those substances listed on the federal drug
schedules. Instead, the offense identifies those substances that
are ‘regulated’ under Virginia law, which has its own drug
schedules.”). States often use their power to prohibit the use of
substances that are not prohibited under federal law. Indeed,
Virginia law, which Ward was convicted under, may contain
as many as 52 substances not found on federal schedules.
See Bah, 950 F.3d at 213 (Thacker, J., dissenting) (“Petitioner
provided an expert's affidavit concluding that Virginia's drug
schedules contain at least 52 substances not found on federal
schedules, including 42 substances on Virginia's Schedule I
alone.”). “Thus, a person imprudent enough to [manufacture,
possess, or distribute these drugs in Virginia] would be found,
under the [majority's view], to have committed a [“controlled
substance offense”] for enhancement purposes—yet a person

591, 110 S.Ct. 2143. Something went wrong here. Rather than
follow the rationale of the Supreme Court, the majority adopts
the very approach Taylor addressed and rejected.
9

Without peering at Michigan state drug schedules,
I assume here that there are at least some
substances that may be controlled by Virginia that
are not controlled by Michigan. But one could
easily substitute these examples with different
sovereigns.

V.
I understand the categorical approach comes with its
complications. This is part of the reason there have been
consistent calls for Congress or the Supreme Court to alter the
framework. See United States v. McCollum, 885 F.3d 300, 309
(4th Cir. 2018) (Traxler, J., concurring) (“Frankly, I would be
satisfied if Congress or the Supreme Court would help us. The
law in this area ... leads to some seemingly odd results with
which I do not think any of us are particularly happy.”); see
also Omargharib v. Holder, 775 F.3d 192, 200 (4th Cir. 2014)
(“Were the Supreme Court willing to take another look at this
area of law, it might well be persuaded, when focusing on
the goals of the categorical approach, to simply allow lower
courts to consider Shepard documents in any case where
they could assist in determining whether the defendant was
convicted of a generic qualifying crime.” (emphasis deleted)).
Hence, it makes sense why my colleagues would be tempted
to apply a new framework that does not follow the outline that
the Supreme Court supplied us with in Taylor. But whatever
the wisdom of clinging onto the purported plain meaning of
terms in the Guidelines, this Court should not rewrite the
law. The majority justifies its holding on the grounds that
“clear textual and structural expressions” support a reading
that would require us to extend § 4B1.2(b) to cover any
controlled substance a state chooses to prohibit. Maj. Op. at
374. But I fail to understand the basis for this confidence.
Even if one does not accept my reading of the Guidelines, it
seems to me that it must at least be acknowledged that the
issue is debatable 10 —and *385 that is enough to apply the
Jerome presumption or respect the Commission's expressed
goal for uniformity.
10

who did so in Michigan 9 might not.” Taylor, 495 U.S. at

Indeed, most of circuits that have addressed the
issue have read the Guidelines different than
the majority reads it today and concluded that
“controlled substance” in § 4B1.2(b) refers to the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 15a

15

United States v. Ward, 972 F.3d 364 (2020)

federal definition. See, e.g., Townsend, 897 F.3d at
71 (Second Circuit); Gomez-Alvarez, 781 F.3d at
793 (Fifth Circuit); Sanchez-Garcia, 642 F.3d at
661 (Eighth Circuit); Leal-Vega, 680 F.3d at 1166
(Ninth Circuit). But see United States v. Ruth, 966
F.3d 642, 653 (7th Cir. 2020) (recognizing “the
weight of authority favors” reading “controlled
substance” to refer to the federal definition but
deviating from this authority because of its
precedent).
End of Document

In any event, as explained, the best course of all would
be to simply follow our precedent, apply the modified
categorical approach, and affirm Ward's sentence on the basis
that his conviction under Virginia Code § 18.2–250 was
for distributing heroin—a substance controlled under federal
schedules.
All Citations
972 F.3d 364
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 16a

16

United States v. Ward, Slip Copy (2018)

2018 WL 9848286
Only the Westlaw citation is currently available.
United States District Court, E.D. Virginia,
Richmond Division.
UNITED STATES of America
v.
Timothy A. WARD, Defendant.
Criminal No. 3:18-cr-44
|
Signed 12/06/2018
Attorneys and Law Firms
Heather Hart Mansfield, United States Attorney's Office,
Richmond, VA, for Plaintiff.

MEMORANDUM OPINION
Robert E. Payne, Senior United States District Judge
*1 This matter is before the Court on DEFENDANT
TIMOTHY A. WARD'S OBJECTION TO PRESENTENCE
INVESTIGATION REPORT. Ward objects to the application
of U.S.S.G. § 4Bl.l(b), an enhancement pursuant to the careeroffender provision of the Guidelines, in his Presentence
Report (“PSR”). Ward contends that two of his prior
Virginia drug convictions do not qualify as “controlled
substance offenses” under the Guidelines, with the result
that the provision cannot be applied to enhance his
Guidelines sentence. Specifically, Ward alleges that the
phrase “controlled substance” used in the Guidelines refers
only to substances on the federal drug schedules, and he
states that the Virginia schedule includes one substance (out of
over 100) not included in the federal schedule. According to
Ward, his two prior convictions under Virginia law–both for
possession of heroin with intent to distribute–do not qualify
as “controlled substance” offenses under the Guidelines.
For the reasons set out below and on the record, the objection
was overruled during Ward's sentencing hearing.

BACKGROUND
A confidential source purchased 0.1645 grams of cocaine
from Ward. Afterward, Ward was charged with knowingly,

intentionally, and unlawfully distributing a mixture and
substance containing a detectable amount of cocaine–a
Schedule II controlled substance–in violation of 21 U.S.C. §§
841(a)(1) and 841(b)(1)(C).
This was not Ward's first time distributing drugs. In 2001, he
was convicted in federal court of distributing 17.7 grams of
cocaine base, for which he served a sentence of 84 months
imprisonment. He was released in June 2008, but soon was
back in prison for violating his supervised release.
After serving the sentence for violation of supervised release,
Ward was arrested for, and later convicted of, two counts of
possessing heroin with intent to distribute it–on two different
occasions–in violation of Va. Code § 18.2-248. Specifically,
Ward was first found with heroin early in the morning on June
21, 2010, when officers arrested him outside a club carrying
6 grams of the substance. Then, on August 25, 2010, Ward
was found with more heroin (3 grams, to be exact) when he
was arrested on that date. On January 24, 2011, Ward was
sentenced on the June 21 charges to ten years imprisonment
with seven years and ten months suspended. On the second
charge, Ward was sentenced to ten years imprisonment with
six years and nine months suspended. The sentences were
to run concurrently. Thus, in total, Ward has three prior
drug possession convictions in addition to the distribution-ofcocaine charge in this case.

DISCUSSION
Ward objects to the PSR's calculation of his sentence, arguing
that his two prior Virginia drug convictions from 2011
are not “controlled substance offenses” as contemplated by
the Guidelines. ECF No. 25. 1 Ward takes the view that
a categorical approach requires state statutes that regulate
“controlled substances” to regulate only the substances that
are also listed in the federal drug schedules. Id. (citing United
States v. Townsend, 897 F.3d 66 (2d. Cir. 2018); United
States v. Gomez-Alvarez, 781 F.3d 787, 793-94 (5th Cir.
2015); United States v. Leal-Vega, 680 F.3d 1160, 1166-67
(9th Cir. 2012); United States v. Sanchez-Garcia, 642 F.3d
658, 661 (8th Cir. 2011)). The Virginia law applicable here
includes at least one substance, out of over 100, that is not
included on the federal schedule: Salvinorin A. See Va. Code
Ann. § 18.2-248; Va. Code § 54.1-3446(3). Consequently, a
conviction under § 18.2-248 could be based on a substance
that is not covered in the federal schedules. According to
Ward, under a categorical approach, this possibility makes an

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 17a

1

United States v. Ward, Slip Copy (2018)

offense under that statute broader than the generic controlled
substance offense in Section 4B1.2(b). Thus, in Ward's view,
a violation of § 18.2-248 cannot count as a prior controlled
substance offense under a categorical approach. ECF No. 25.
1

As the Government notes, Ward does not contest
that his federal conviction from 2001 is a
“controlled substance offense,” ECF No. 29, so
only one other conviction is necessary for the
enhancement to apply. See U.S.S.G. § 4B1.1.
But, because both convictions fall under the same
Virginia statute, the Court must determine whether
convictions under that statute are covered by the
Guidelines.

But the Court does not need to use a categorical approach
when the Guidelines phrase “does not describe a traditional
common-law crime, and the phrase thus does not invoke an
established, generic structure.” Alfaro, 835 F.3d at 474. In
those cases, the Court, “instead look[s] to the plain, ordinary
meaning of the language used by the Guidelines.” Id.
This case fits the latter approach, because a “controlled
substance offense” is not a traditional, common-law crime.
II. Convictions Under Va. Code § 18.2-248 Qualify as
“Controlled Substance Offenses” as Defined by U.S.S.G.
§ 4B1.2(b)
In full, U.S.S.G. 4B1.2(b) says,

*2 For the reasons set out in the record and as discussed
more fully below, that argument lacks merit.
The term “controlled substance
offense” means an offense under
federal or state law, punishable
by imprisonment for a term
exceeding one year, that prohibits
the manufacture, import, export,
distribution, or dispensing of a
controlled substance (or counterfeit
substance) or the possession of a
controlled substance (or counterfeit
substance) with intent to manufacture,
import, export, distribute, or dispense.

I. Legal Background
The Court uses a categorical approach when “the enumerated
generic offense is a traditional, common-law crime.” United
States v. Alfaro, 835 F.3d 470, 474 (4th Cir. 2016).
A categorical approach “considers ‘how the law defines
the offense,’ not ‘how an individual offender might have
committed it on a particular occasion.’ ” United States v.
Thompson, 874 F.3d 412, 417 (4th Cir. 2017) (quoting Begay
v. United States, 553 U.S. 137, 141 (2008)). That is done
under the guidelines “based on how the offense is defined ‘in
the criminal codes of most states.’ ” United States v. Peterson,
629 F.3d 432, 436 (4th Cir. 2011) (quoting Taylor v. United
States, 495 U.S. 575, 598 (1990)). 2
2

Further, a modified categorical approach is used
only if the prior state conviction rests on a statute
that “contains divisible categories of proscribed
conduct, at least one of which constitutes–by its
elements–a violent felony.” Id. at 417 n.4 (quoting
United States v. Gomez, 690 F.3d 194, 199 (4th Cir.
2012)). Under a modified categorical approach, “a
court may examine a limited universe of documents
relevant to the underlying conviction for the sole
purpose of determining which part of the statute the
defendant violated.” Id.
But, as discussed below, based on the interpretation
of § 18.2-248 set out herein, there is no need to
address whether § 18.2-248 is divisible under a
modified categorical approach.

Id. (emphasis added). The ordinary meaning of “controlled
substance” is “any type of drug whose possession and use
is regulated by law.” Controlled Substance, Black's Law
Dictionary (10th ed. 2014).
Ward's state convictions were under § 18.2-248, which
makes it unlawful “for any person to manufacture, sell, give,
distribute, or possess with intent to manufacture, sell, give
or distribute a controlled substance or an imitation controlled
substance.” Va. Code § 18.2-248 (A). That statute also sets
penalties for “any person who violates this section with
respect to a controlled substance classified in Schedule I or
II.” Id. § 18.2-248(C). “Schedule I or II,” in turn, “refer[s] to
those terms as they are used or defined in the Drug Control
Act (§ 54.1-3400 et seq.).” Id. § 18.2-247(A). The substances
listed in those two schedules are largely the same as those
listed in the corresponding federal schedules. Compare Va.
Code § 54.1-3446, with 21 C.F.R. § 1308.11 (Schedule I);

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 18a

2

United States v. Ward, Slip Copy (2018)

compare Va. Code § 54.1-3448, with 21 C.F.R. § 1308.12
(Schedule II). All the substances listed in Virginia Schedule
II are also listed in the federal Schedule II. However, Virginia
Schedule I includes one substance, Salvinorin A, that is not
listed in any federal schedule. See Va. Code § 54.1-3446(3).
Thus, Ward reasons that his prior state convictions should not
count for purposes of the Guidelines.
*3 The Fourth Circuit recently considered this question in its
unpublished opinion in United States v. Pritchett, 733 F. App'x
128 (2018) (per curiam) (unpublished). There, the Court of
Appeals held that the defendant's conviction for possession of
cocaine with intent to distribute in violation of Va. Code Ann.
§ 18.2-248 (the same statute challenged in this case) was a
controlled substance offense. Pritchett, 733 F. App'x at 130.
In Pritchett, the Court of Appeals, however, did not explicitly
hold whether the statute was unambiguous or whether it
applied either a categorical approach or a modified categorical
approach. Instead, the Fourth Circuit relied on its previous
published decision in United States v. Mills, 485 F.3d 219
(4th Cir. 2007), wherein the issue was whether a defendant's
prior simulated drug conviction was a “counterfeit substance”
offense and thus a “controlled substance offense” within
the meaning of the Guidelines. Id. at 220. Concluding that,
even though Virginia's “counterfeit substance” statute defined
the punishable substances more broadly than the definition
of “counterfeit substance” in the Controlled Substances Act
(“CSA”), the Fourth Circuit held, in Mills, that convictions
under the Virginia statute were nonetheless “controlled
substance offenses.” Id. at 222-23. It did so for two reasons.
First, the Court found that the Guidelines provisionr-U.S.S.G.
§ 4B1.2(b)–did not contain any references to the CSA, which
was notable given the frequency of cross-references to other
guidelines and statutes throughout the guidelines. See id. at
223. And, the Court concluded that it could not presume that
this omission was inadvertent. Id. Second, the Court found
that the plain meaning of “counterfeit” included substances
that were “made in imitation of” controlled substances and
that applying the federal definition of “counterfeit substance”
would, in effect, “read the word ‘state’ out of Section 4B1.2.”
Id. at 222-24.
Without explanation, Ward urges that Pritchett and Mills
should be ignored and argues instead to apply the Second
Circuit's recent published decision in United States v.
Townsend. There, a defendant pleaded guilty to possessing
a controlled substance, alprazolam, with intent to distribute
it in violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(2).
897 F.3d at 68. His PSR determined that an enhancement

applied to the defendant because of two prior convictions.
Id. One of those was a felony conviction for possession of a
controlled substance under New York law. Id. The New York
statute prohibited Human Chorionic Gonadotropin, which,
like Salvinorin A, is not on the federal schedule. Id. The
Second Circuit held that a “controlled substance” included
only drugs on the federal drug schedule. Id. The Second
Circuit did so because it found that the Guidelines were
ambiguous, id. at 70-71, and took the view that U.S.S.G. §
4B1.2(b) would clarify that the controlled substance could be
under either federal or state law if the Commission wanted
both to be covered by the enhancement. Id. In its view,
the Jerome presumption–which is that “the application of a
federal law does not depend on state law unless Congress
plainly indicates otherwise,” id. at 71 (citing Jerome v.
United States, 318 U.S. 101, 104 (1943))–applies to the
Guidelines, meaning that they should be read narrowly with
a presumption that federal standards alone apply. Id. The
decision in Townsend is not persuasive.
Considering that the Fourth Circuit has held that a cocaine
possession offense under Va. Code Ann. § 18.2-248 was
a controlled substance offense, and considering the plain
language of U.S.S.G. § 4B1.2(b), the Court finds that
§ 4B1.2(b) unambiguously covers Ward's two prior state
convictions. Applying the principles set out in Mills, the
Court finds that U.S.S.G. § 4B1.2(b) is not limited to
21 U.S.C. § 802(6)'s definition of controlled substance.
First, § 4B1.2(b) does not cross reference § 802(6), which
is important “because the Sentencing Commission clearly
knows how to cross-reference when it wants to.... The
Sentencing Guidelines are a veritable maze of interlocking
sections and statutory cross-references.” Mills, 485 F.3d at
223. If Congress wished to define “controlled substance” in
reference to a limited technical term, it would include a crossreference to § 802(6). See id. at 224.
Second, “[i]t is a cornerstone of statutory interpretation that an
undefined term is construed ‘in accordance with its ordinary
or natural meaning.’ ” See id. at 220. And the ordinary
meaning of “controlled substance” is “any type of drug
whose possession and use is regulated by law.” Controlled
Substance, Black's Law Dictionary (10th ed. 2014). Virginia's
law clearly satisfies this definition. See Va. Code Ann. §
18.2-248 (A) (“[I]t shall be unlawful for any person to
manufacture, sell, give, distribute, or possess with intent to
manufacture, sell, give or distribute a controlled substance or
an imitation controlled substance.”).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 19a

3

United States v. Ward, Slip Copy (2018)

*4 Third, the plain text of the Guideline supports applying
state controlled-substance convictions. Section 4B1.2(b)
refers to “an offense under federal or state law,” indicating
that a “controlled substance” is one controlled by either a state
or the United States. Id. (emphasis added). So, applying the
federal definition of “controlled substance” here would, in
effect, “read the word ‘state’ out of Section 4B1.2.” Mills, 485
F.3d at 224.
Moreover, the categorical-approach precedent from the
Supreme Court does not support Ward's interpretation. The
Supreme Court has applied the categorical approach partially
because it believes the text of Congress's statutes supports that
approach. See Mathis v. United States, 136 S. Ct. 2243, 2252
(2016) (stating that the Court applies an “elements-only”
categorical approach because “[the Armed Career Criminal
Act's] text favors that approach” and because “Congress
chose” that course); Johnson v. United States, 135 S. Ct. 2551,
2562 (2015) (focusing on Congress's intentions and stating
that the “ ‘only plausible interpretation’ of the law ... requires
use of the categorical approach” (quoting Taylor, 495 U.S.
at 602). Here, the text supports finding that convictions for
controlled substance offenses under either state or federal
law should apply to the enhancement. See U.S.S.G. 4B1.2(b)
(“The term ‘controlled substance offense’ means an offense
under federal or state law ....”).
And, doing as Ward urges would be inconsistent with the
Fourth Circuit's decision in Mills: Section 4B1.2 contains the
“controlled substance” provision at issue here right next to
the “counterfeit substance” provision at issue in Mills. Both
should be interpreted the same way, because it is hard to
imagine that the Sentencing Commission intended the two to
be interpreted differently when placing them within the same
paragraph and using them interchangeably. Thus, the Court
here follows Mills' holding that “the Sentencing Commission,
by specifying that federal and state violations serve as
predicate offenses for career-offender status, clearly intended
for repeat offenders of both state and federal counterfeit
crimes to be subject to an enhanced sentence.” 485 F.3d at
224 (emphasis in original).

of title 46, for which a maximum term of imprisonment
of ten years or more is prescribed by law; or
(ii) an offense under State law, involving manufacturing,
distributing, or possessing with intent to manufacture or
distribute, a controlled substance (as defined in section
102 of the Controlled Substances Act (21 U.S.C. 802)),
for which a maximum term of imprisonment of ten years
or more is prescribed by law.
18 U.S.C. § 924(e)(2)(A) (emphasis added). If the state
convictions that qualify as “serious drug offenses” are
supposed to be different than those that qualify as “controlled
substances offenses” under Section 4B1.2(b), the only
apparent distinction implied by § 924's language is that the
former must be based on the federal controlled substances
schedules while the latter do not.
Finally, as the Government notes, Ward's interpretation of §
4B1.2(b) would lead to absurd results: if a state recognized
a new drug before federal authorities did, then every state
drug conviction in the interim–including those convictions
for heroin, cocaine, methamphetamine, and other drugs
clearly prohibited under both state and federal law-would be
excluded from counting as a “controlled substance offense”
so long as the federal and state schedules were not exactly the
same. 3
3

Fourth, the Court notes that federal law differentiates between
a “serious drug offense” and a “controlled substance offense.”
A “serious drug offense” is defined as either:
(i) an offense under the Controlled Substances Act (21
U.S.C. 801 et seq.), the Controlled Substances Import
and Export Act (21 U.S.C. 951 et seq.), or chapter 705

Ward further argues that § 18.2-248 is overbroad
because (1) there should be a mens rea requirement
that a defendant must know that he has a substance
that violates the federal schedules, and (2)
Virginia's aiding-and-abetting liability goes further
than federal liability by allowing a defendant to be
convicted even if he merely approved of a crime
and was present during its commission. ECF No.
25.
Ward's mens rea argument is meritless, because
both the Virginia statute and the federal statute
require only that the defendant knowingly carried
a controlled substance that violated their respective
schedules. There is no requirement in § 4B1.2(b)
that limits the mens rea for state drug offenses to
knowledge of the federal schedules.
Ward's
aiding-and-abetting
argument–that
“Virginia's aiding and abetting liability is
overbroad and indivisible,” ECF No. 25–similarly
fails, because there is no case law to support
that Virginia has a different standard of aiding-

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 20a

4

United States v. Ward, Slip Copy (2018)

and-abetting liability than the federal standard.
Generic aiding and abetting has two aspects. First,
the defendant must have the “ ‘specific intent to
facilitate the commission of a crime by someone
else.’ ” United States v. Valdivia-Flores, 876 F.3d
1201, 1207 (9th Cir. 2017) (emphasis in original)
(quoting United States v. Garcia, 400 F.3d 816,
819 (9th Cir. 2005)). Second, the aider and abettor
must render some assistance to the principal “ ‘by
words, acts, encouragement, support, or presence.’
” United States v. Cammorto, 859 F.3d 311, 317
(4th Cir. 2017) (emphasis in original) (quoting
Rosemond v. United States, 572 U.S. 1240, 1246
(2014)). Virginia's interpretation of accomplice
liability is consistent with this formulation. See
Thomas v. Commonwealth, 688 S.E.2d 220, 235
(Va. 2010)(stating that the aider and abettor
must commit “some overt act done knowingly in
End of Document

furtherance of the commission of the crime” or
“share[ ] in the criminal intent of the principal
committing the crime” and that an accomplice must
“encourag[e], incit[e], or in some manner offer[ ]
aid in the commission of the crime,” including by
being “present lending countenance”).

CONCLUSION
*5 For the foregoing reasons and those set forth on the
record at sentencing, DEFENDANT TIMOTHY A. WARD'S
OBJECTION TO PRESENTENCE INVESTIGATION
REPORT was overruled during Ward's sentencing hearing.
All Citations
Slip Copy, 2018 WL 9848286
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 21a

5

USCA4 Appeal: 18-4720

Doc: 55

Filed: 09/29/2020

Pg: 1 of 1

FILED: September 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4720
(3:18-cr-00044-REP-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
TIMOTHY A. WARD
Defendant - Appellant
___________________
ORDER
___________________
The petition for rehearing en banc was circulated to the full court. No
judge requested a poll under Fed. R. App. P. 35. The court denies the petition
for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

Pet. App. 22a

